No. 20-6359
IN THE SUPREME COURT OF THE UNITED STATES

ANDREW REY YBABEN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PROOF OF SERVICE
I, Kevin Joel Page, do certify that on this date, April 7, 2021, pursuant to Supreme Court
Rules 29.3 and 29.4, I have served the attached Reply in Support of Petition for a Writ of Certiorari
on each party to the above proceeding, or that party's counsel, and on every other person required to
be served. I have served the Supreme Court of the United States via Federal Express, overnight. The
Solicitor General and the petitioner were each served by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with first-class postage
prepaid. Assistant United States Attorney Leigha Simonton has been served by email, per her
request.
The names and addresses of those served are as follows:
Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543

Solicitor General
Department of Justice
Washington, D.C. 20530

Leigha Simonton
Assistant United States Attorney
1100 Commerce Street, 3rd Floor
Dallas, Texas 75242-1699
leigha.simonton@usdoj.gov

JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax
**

Counsel of Record

/s/ Kevin Joel Page
KEVIN J. PAGE **
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 24042691
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886

